No. 20-5598

In the Supreme Court of the United States
GARY RICHARDSON,
Petitioner,
v.
STATE OF COLORADO,
Respondent.

CERTIFICATE OF SERVICE

I, L. Andrew Cooper, a member of the Bar of the United States Supreme
Court, certify that on January 4, 2021, as required by Supreme Court Rule 29 and
pursuant to the U.S. Supreme Court Order entered April 15, 2020, caused the
foregoing RESPONDENT’S BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI to be electronically filed with the Clerk of the U.S. Supreme Court, as
well as causing the original Brief to be delivered to said Clerk by depositing same
into the U.S. mail, in a properly addressed, first class postage paid envelope; and to
be served on Petitioner’s counsel of record electronically, as follows:
NICOLE M. MOONEY
MS&M Law Office
P.O. Box 3089
Denver, CO 80201
Email: nicolemariemooney@yahoo.com
Counsel of Record for Petitioner

L. Andrew
Cooper

Digitally signed by L.
Andrew Cooper
Date: 2021.01.04
17:12:29 -07'00'

/s/ L. Andrew Cooper
L. ANDREW COOPER
Deputy Attorney General
Colorado Dept. of Law
1300 Broadway, 10th Floor
Denver, CO 80203
Andrew.Cooper@coag.gov
(720) 508-6465
Counsel of Record for Respondent

